  PILOT PROGRAM ON SALES OF MANUFACTURED ARTICLES
      AND SERVICES OF ARMY INDUSTRIAL FACILITIES

Report No. D-2001-069                          March 1, 2001




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, visit the Inspector General, DoD,
Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
(703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.
                       Office of the Inspector General, DoD
Report No. D-2001-069                                                      March 1, 2001
 (Project No. D2000CH-0239)


              Pilot Program on Sales of Manufactured Articles
                  and Services of Army Industrial Facilities

                                Executive Summary

Introduction. This is the third of three reports on our audit of the pilot program on
sales of manufactured articles and services of Army industrial facilities. This report
discusses our assessment of the pilot program to sell manufactured articles and services
of three industrial facilities to commercial contractors providing weapon systems to
DoD. Section 141 of the FY 1998 Defense Authorization Act authorized the pilot
program because of congressional concern that the industrial facilities were operating
inefficiently because work was not available with reduced defense budgets. According
to Army officials, in December 2000, 80 percent of Rock Island Arsenal industrial
capacity and 85 percent of Watervliet Arsenal industrial capacity was unused, compared
to less than 20 percent of unused capacity in 1988. The unused industrial capacity at
McAlester Army Ammunition Plant was 86 percent at the end of 2000. Section 115 of
the FY 2000 Defense Authorization Act extended the pilot program through FY 2001.
The pilot program provides the opportunity for Rock Island Arsenal, Watervliet
Arsenal, and the McAlester Army Ammunition Plant, to increase their workloads by
participating in contracts and teaming arrangements with United States manufacturers,
assemblers, developers, and other concerns under DoD weapon system programs
without determining whether the articles and services are available from United States
commercial sources. The DoD budget indicates that DoD anticipates spending about
$48 billion in FY 2001 to procure new weapon systems and upgrade existing systems.

Objective. The primary audit objective was to determine the results of the pilot
program. Specifically, we determined whether the waiver of 10 U.S.C. 4543(a)(5)
enhanced opportunities for United States manufacturers, assemblers, developers, or
other concerns; Army industrial facilities; and small businesses to enter into or
participate in contracts and teaming arrangements under DoD weapon systems
programs.

Results. The pilot program has been only minimally successful in increasing the use of
the capabilities of the participating Army industrial facilities. From the June 1998
Army implementation of the pilot program to January 2001, the three participating
industrial facilities obtained only 12 contracts valued at $6.0 million, including a 5-year
contract valued at $5.2 million for demilitarization of conventional ammunition
awarded to the McAlester Army Ammunition Plant in August 2000. Consequently, the
pilot program has had little effect on increasing the opportunities for United States
commercial firms and the Army industrial facilities to participate in contracts and
teaming arrangements under DoD weapon system programs. Provisions in the
FY 2001 Defense Authorization Act and recent Army initiatives have eliminated or
mitigated some of the impediments to the industrial facilities obtaining work under the
pilot program, but have not been in effect long enough to create a measurable
difference. Eliminating the remaining impediments will further increase the
opportunities for commercial firms, small businesses, and the Army industrial facilities
to enter into contracts or teaming arrangements under DoD weapon system programs
and increase the use of the industrial facilities' capabilities. For details of the audit
results, see the Finding section of the report.

We believe that the pilot program should be extended. Overall the pilot program is
beneficial to DoD and the military industrial base. The DoD benefits because the pilot
program eliminates an impediment to obtaining work for the Army industrial facilities.
The military industrial base benefits because it can contract or partner directly with an
Army industrial facility for needed articles and services. The pilot program eliminates
the need for the Army to certify that the products or services required by commercial
firms desiring to contract or partner with an industrial facility are not available from
United States commercial sources. The pilot program, as well as the recently
established arsenal and armament support program initiatives, also benefit commercial
firms because the programs provide private contractors and small businesses additional
accessibility to the Army industrial facilities and their unique capabilities. Any increase
in the volume of work resulting from the pilot program and the arsenal and armaments
support program initiatives provided in the FY 2001 Defense Authorization Act would
use idle plant capacity, reduce overhead costs, and result in lower prices to all
customers of the industrial facilities. More importantly, the added work would aid the
retention of critical manufacturing skills that are being lost because of the lack of work
at the industrial facilities.

Summary of Recommendations. We recommend that the Under Secretary of
Defense (Comptroller) waive the requirement to charge full costs contained in
Volume 11B, DoD Regulation 7000.14R,"Financial Management Regulation," and
initiate action to amend Volume 11B as permitted by 10 U.S.C. 4543(b)(3)(A). The
cited statute authorizes industrial facilities that manufacture large caliber cannons, gun
mounts, or recoil mechanisms, or components thereof, to charge their buyers, at a
minimum, the variable costs associated with the articles or services provided.

We recommend that the Under Secretary of Defense for Acquisition, Technology, and
Logistics request Congress to waive, for the pilot program, the requirement in
10 U.S.C. 4543(b)(2) that the industrial facilities obtain advance payment from
purchasers of their articles and services.

Management Comments. The Assistant Deputy Comptroller (Program/Budget) stated
he applauds the intent of the recommendation which would have the arsenals find other
sources of work, specifically work for or in partnership with the private sector. This
would increase utilization and reduce the overall cost of infrastructure. However, the
revolving fund form of financial management is based on the principle of full cost
recovery. Full cost recovery requires that for any work performed, all direct costs plus
an applicable share of overhead expenses must be recovered from the customer. The
Assistant Deputy Comptroller stated that allowing the Arsenals to charge private
contractors less than their DoD customers, in an era of scarce resources, is
counterproductive to sound financial management. Further, the concept of full cost
recovery is a basic principle that must be followed. The Under Secretary of Defense for
Acquisition, Technology, and Logistics did not respond to the draft report. A
discussion of management comments is in the Finding section of the report and the
complete text is in the Management Comments section.



                                             ii
Audit Response. The Assistant Deputy Comptroller comments show he understands
the issues. However, the comments do not include any flexibility to address the
underlying problem of excess idle capacity that raises the rates charged and results in
no new work because of higher rates. We support the concept of recovering all costs.
However, this is a pilot program that is allowed to try different things in order to help
preserve the industrial base. Army industrial facilities are not required to charge their
customers full costs. The DoD Financial Management Regulation policy that requires
the Army industrial facilities to charge full costs is more restrictive than
10 U.S.C. 4543, which provides the option to charge only variable costs. The intent of
10 U.S.C. 4543 is to give Army industrial facilities relief from statutes and regulations
that require that the prices offered to potential customers include costs that are
unrelated to the actual manufacture of the products or services. To facilitate the pilot
program, the regulation should be modified to permit the Army industrial facilities to
charge, at a minimum, only variable costs. The modification could include a time
limit. We request that the Under Secretary of Defense (Comptroller) reconsider its
position on charging full costs and provide comments on the final report. We request
that Under Secretary of Defense for Acquisition, Technology, and Logistics and the
Under Secretary of Defense (Comptroller) provide comments on the final report by
May 1, 2001.




                                           iii
Table of Contents
Executive Summary                                                i
Introduction
     Background                                                  1
     Objective                                                   4

Finding
     Pilot Program Progress                                      5

Appendixes
     A. Audit Process
          Scope and Methodology                                 13
          Prior Coverage                                        14
     B. Summary of Contracts Obtained Under the Pilot Program   15
     C. Report Distribution                                     16

Management Comments
     Under Secretary of Defense (Comptroller)                   19
Background
     FY 2000 Defense Authorization Act. We conducted the audit in response to a
     tasking in Public Law 106-65, "National Defense Authorization Act for
     FY 2000." Section 115 of the FY 2000 Defense Authorization Act extends the
     Army pilot program through FY 2001. The program allows Army industrial
     facilities to sell manufactured articles and services to persons outside DoD
     without determining availability from U.S. commercial sources as required by
     section 4543(a)(5), title 10, United States Code (10 U.S.C. 4543[a][5]). The
     waiver of 10 U.S.C. 4543(a)(5) applies to the sale of articles and services to be
     used in the manufacture of weapon systems for which solicitations of offers are
     issued during FYs 1998 through 2001. Before the waiver, the Army was
     allowed to sell manufactured articles or services to persons outside the DoD
     only when the Secretary of the Army determined that the articles and services
     were not available from commercial sources located in the United States. The
     FY 2000 Defense Authorization Act requires the Inspector General, DoD, to
     audit and submit an updated report on the results of the pilot program not later
     than March 1, 2001.

     Congressional Concerns. The Senate Committee on Armed Services expressed
     concern in Report No. 105-29 accompanying the FY 1998 Defense
     Authorization Act that with the end of the Cold War, and the beginning of
     reduced Defense budgets, DoD military industrial facilities were operating
     inefficiently because work was not available. The committee believed these
     facilities should be allowed to provide commercial contractors with articles and
     services for inclusion in weapon systems that would ultimately be procured by
     the DoD. The committee believed that using this excess capacity would reduce
     facility operating costs, provide private industry with quality service, and
     maintain a critical work force. Therefore, the committee recommended a
     provision that would authorize Army industrial facilities to sell articles and
     services to commercial entities that would ultimately be incorporated into
     weapon systems procured by DoD.


Three Army Industrial Facilities Participating in the Pilot
Program
     Rock Island Arsenal, Illinois. Rock Island Arsenal, which is located on the
     Mississippi River near Rock Island, and Moline, Illinois, and Davenport, and
     Bettendorf, Iowa, began manufacturing operations in 1862. Rock Island
     manufactures weapon components such as artillery gun mounts, recoil
     mechanisms, and aircraft weapon subsystems. A $220 million modernization
     project completed in the late 1980s greatly enhanced Rock Island's physical
     plant and machine tool inventory. Every phase of manufacturing is available
     from prototype development to production of major items, spare parts, and
     repair items. Capabilities include design work; foundry work; forging;
     machining; finishing; soft materials fabrication; tool, die and gauge
     manufacturing; spare and repair parts production; and prototype fabrication.
     Recent products include the M198 155mm Towed Howitzer, the M119 Towed


                                         1
     Howitzer, and the gun mount for the M1A1 Abrams tank. Rock Island is
     collocated with Headquarters, U.S. Army Operations Support Command, which
     is responsible for managing Army depots, arsenals, and ammunition plants
     worldwide.

     Watervliet Arsenal, New York. Watervliet Arsenal, which is located on the
     banks of Hudson River, northeast of Albany, New York, began manufacturing
     operations in 1813 and is the nation’s oldest, continuously-active arsenal.
     Watervliet is a world-class facility that produces large bore gun barrels and
     breech mechanisms for artillery, armor, and shipboard weapon systems, as well
     as ship propeller shafts and other large, cylindrical, shaft items. Watervliet is
     collocated with the U.S. Army Benet Laboratory, whose mission includes the
     research and development of military ordinance items and manufacturing
     technologies. A $350 million modernization project completed in 1992 more
     than doubled the production capability of Watervliet. Watervliet is equipped
     with a variety of modern computer-numerical-control machining centers, mills,
     profilers, and lathes. Also, Watervliet has capabilities that include precision
     machining; tool and die making; metal fabrication; welding; specialized
     machining; forging; heat treatment; electroplating/surface coating; painting; and
     packaging. In addition, Watervliet conducts precision inspections and testing of
     a variety of parts and assembly configurations. Recently, Watervliet installed a
     demonstration system to recycle highly toxic chemicals that were used to clean
     and prepare military gun components for chrome plating.

     McAlester Army Ammunition Plant, Oklahoma. The McAlester Army
     Ammunition Plant, which is located in McAlester, Oklahoma, began
     manufacturing operations in 1943 as a Naval Ammunition Depot. McAlester is
     the premier DoD facility for loading, assembling, and packing high explosive
     and inert aerial bombs. McAlester's other functions include maintenance and
     renovation of bombs, rockets, projectiles and propelling charges, distributing
     war reserve ammunition critical to the first 30 days of a military conflict, and
     conventional ammunition demilitarization. The installation covers about
     70 square miles (45,000 acres) in southeastern Oklahoma and has
     6 manufacturing facilities and more than 2,200 earth-covered ammunition
     storage magazines and 162 inert storage warehouses. The storage capacity is
     used for war reserve stocks of ammunition. McAlester is collocated with the
     U.S. Army Defense Ammunition Center, which performs munitions training,
     logistics engineering, explosive safety, demilitarization research and
     development, and career management functions.


Guidance Addressing Sales of Articles and Services
Outside DoD
     Pilot Program Requirement. Section 141 of the FY 1998 Defense
     Authorization Act requires the Army to carry out a pilot program to test the
     efficacy and appropriateness of selling manufactured articles and services of
     Army industrial facilities under 10 U.S.C. 4543 without regard to the
     availability of the articles and services from United States commercial sources.
     In carrying out the pilot program, the FY 1998 Defense Authorization Act


                                       2
permits the Secretary of the Army to sell articles manufactured at, and services
provided by, ". . . not more than three Army industrial facilities."

Temporary Waiver of Requirement to Determine Availability from
Domestic Source. The FY 1998 Defense Authorization Act waives the
requirement in 10 U.S.C. 4543(a)(5) for the Army to determine whether an
article or service is available from a commercial source located in the United
States. The waiver applied to the following types of sales for which a
solicitation of offers was issued during FYs 1998 and 1999:

   •   articles that were incorporated into a weapon system procured by DoD,
       and

   •   services that were used in the manufacture of a weapon system procured
       by DoD.

Pilot Program Review Requirement. The FY 2000 Defense Authorization Act
extends the pilot program through FY 2001, and requires the Inspector General,
DoD, to review the pilot program and report the results of the review to
Congress by March 1, 2001. The report should assess the extent to which the
temporary waiver of 10 U.S.C. 4543(a)(5):

   •   enhances the opportunity for United States manufacturers, assemblers,
       developers, and other concerns to enter into or participate in contracts
       and teaming arrangements with Army industrial facilities under DoD
       weapon system programs,

   •   enhances the opportunity for Army industrial facilities to enter into or
       participate in contracts and teaming arrangements with United States
       manufacturers, assemblers, developers, and other concerns under DoD
       weapon system programs, or

   •   affects the ability of small businesses to compete for the sale of
       manufactured articles or services in the United States in competitions to
       enter into or participate in contracts and teaming arrangements under
       DoD weapon system programs.

The report may also include examples and recommendations that the Inspector
General considers appropriate regarding continuation or modification of the
policy as set forth in 10 U.S.C. 4543(a)(5). In response to a tasking in the
FY 1998 Defense Authorization Act, the Inspector General, DoD, previously
provided two audit reports on the pilot program, Report No. 99-121, "Pilot
Program on Sales of Manufactured Articles and Services of Army Industrial
Facilities," April 2, 1999, and Report No. 99-203, "Status of Implementation of
the Pilot Program on Sales of Manufactured Articles and Services of Army
Industrial Facilities," July 8, 1999. The two reports contained
recommendations to improve the chances for the pilot program to succeed in
providing additional work at the industrial facilities.




                                  3
Objective
    The audit objective was to determine the results of the pilot program.
    Specifically, the audit was to determine whether the waiver of 10 U.S.C.
    4543(a)(5) enhanced opportunities for United States manufacturers, assemblers,
    developers, or other concerns; Army industrial facilities; and small businesses
    to enter into or participate in contracts and teaming arrangements under DoD
    weapon system programs. See Appendix A for a discussion of the audit scope
    and methodology and prior coverage related to the audit objective.




                                      4
           Pilot Program Progress
           The pilot program has minimally increased the use of the capabilities of
           Army industrial facilities as of January 2001. Marketing of the pilot
           program by the three participating industrial facilities has resulted in
           only 12 contracts valued at $6.0 million, including a 5-year contract
           valued at $5.2 million for demilitarization of conventional ammunition,
           awarded in August 2000 to the McAlester Army Ammunition Plant. See
           Appendix B for a summary of contracts obtained under the pilot
           program. Factors such as DoD guidance requiring industrial facilities to
           charge customers full costs, which resulted in losing 38 contracts valued
           at $152,893,949, and the other impediments previously identified in
           Inspector General, DoD, audit reports 99-121 and 99-203, prevented the
           pilot program initiative from generating significant additional work for
           the industrial facilities. Consequently, the pilot program minimally
           increased opportunities for United States commercial firms, and Army
           industrial facilities participation in contracts and teaming arrangements
           under DoD weapon system programs. Provisions in the FY 2001
           Defense Authorization Act, and recent Army initiatives, have eliminated
           or mitigated some of the impediments, but have not been in effect long
           enough to create a measurable difference. Eliminating the remaining
           impediments will increase the opportunities for commercial contractors,
           small businesses, and Army industrial facilities to enter into contracts
           and teaming arrangements under DoD weapon system programs and
           increase the use of the industrial facilities' capabilities.


Impediments Eliminated or Mitigated
    Delayed Implementation of Pilot Program. This impediment was previously
    identified in Inspector General, DoD, Report No. 99-121. The Army pilot
    program was scheduled to expire on September 30, 1999. Because the Army
    did not implement the program until June 1998, not enough time remained to
    gain sufficient experience under the pilot program to assess the impact of the
    program.

          Section 115 of the FY 2000 Defense Authorization Act extended the pilot
    program until September 30, 2001.

    Charging Customers for Plant-Capacity Costs. This impediment was
    previously identified in Inspector General, DoD, Report No. 99-203. Because
    the industrial facilities were not being allocated the budgeted amounts for
    unutilized and underutilized plant-capacity costs, prices for their products and
    services were increased. The three industrial facilities budgeted $41,392,200
    for unutilized and underutilized plant-capacity costs in FY 1998, but were
    allocated only $16,209,900. The $25,182,300 difference was included in prices
    offered by the industrial facilities to both Government and private sector
    customers. In FY 2000, the difference between budgeted unutilized and
    underutilized plant-capacity costs and the allocation received was $18,384,000.



                                      5
        Section 342 of the FY 2001 Defense Authorization Act requires that
funds appropriated for unutilized and underutilized plant-capacity costs be used
only for such costs. Section 342 also requires that when an Army arsenal is
serving as a subcontractor to a private sector entity with respect to goods or
services to be provided to a Government agency, the price charged by the
arsenal shall not include unutilized and underutilized plant-capacity costs that
are funded by a direct appropriation. Additionally, Volumes 2A and 2B of the
DoD Financial Management Regulation were revised in June 2000 to show that
unutilized and underutilized plant-capacity costs will be reimbursed from
appropriated funds and excluded from the prices of products and services
provided to customers.

Pilot Program Legislation Requiring Sales for DoD Weapon Systems. This
impediment was previously identified in Inspector General, DoD, Report
No. 99-203. Section 141 of the FY 1998 Defense Authorization Act permits
that articles and services provided under the pilot program be sold to prime
contractors for incorporation into weapon systems being procured by DoD. The
requirement that the articles and services be incorporated in DoD weapon
systems prevents the industrial facilities from selling articles and services to
contractors for incorporation into items being procured by other Government
agencies, friendly foreign governments, and commercial customers unless a
determination is made that the articles or services are not available from United
States commercial sources.

         Section 343 of the FY 2001 Defense Authorization Act contains an
arsenal support program initiative. The initiative requires the Army to carry out
a demonstration program during FYs 2001 and 2002 at Rock Island and
Watervliet Arsenals to increase the use by commercial firms of the skilled
workforce, equipment, and facilities at the arsenals. The initiative encourages
use of the unutilized capacity at the arsenals and includes a loan guarantee
program to assist commercial firms in establishing commercial activities at the
arsenals. Similar provisions covering the McAlester Army Ammunition Plant
are included in the armament retooling and manufacturing support initiative
established in 10 U.S.C. 4553. Although the arsenal and armament support
program initiatives did not remove the requirement that articles and services
provided under the pilot program be incorporated into DoD weapon systems,
they did create additional opportunities for increased use of the industrial
facilities' capabilities.

Uncertainty About the Future of the Army Arsenals. This impediment was
previously identified in Inspector General, DoD, Report No. 99-203. Officials
at Rock Island and Watervliet Arsenals expressed concern that the Office of
Management and Budget Circular A-76 studies announced in August 1998 to
determine whether operation of the arsenals should be contracted out or retained
in-house and rumors circulating that the Army wanted to close the Arsenals
were creating uncertainty in the minds of potential customers desiring long-term
supplier relationships. The officials believed that potential customers were not
awarding contracts to the arsenals because the customers were not certain that
the high quality of work would continue after operations were contracted out, or
that the arsenals would remain open.




                                  6
           The Army Materiel Command canceled the Office of Management and
    Budget Circular A-76 cost studies of the manufacturing functions at the arsenals
    because unpredictable workloads prevented identification of the scope of work.
    The base operations functions continue to be studied under the Circular.
    Additionally, the arsenal support program initiative established in section 343 of
    the FY 2001 Defense Authorization Act should assure potential customers that
    the Arsenals will remain open.


Impediments Requiring Action
    Requirement to Charge Customers Full Costs. This impediment was
    previously identified in Inspector General, DoD, Report No. 99-203. Guidance
    in the DoD Financial Management Regulation that requires Army industrial
    facilities to include full costs in their proposed prices has placed the industrial
    facilities at a disadvantage when competing with commercial sources that
    include in their proposed prices only the costs that are attributable to the article
    or services to be provided. Of the 30 offers by Rock Island Arsenal under the
    pilot program, 27 were rejected because the prices were too high. Rock Island
    Arsenal officials stated that the prices were too high because they included full
    costs rather than specific costs related to producing the item or service. The
    total amount of the 27 rejected offers was $152,047,200. The three offers that
    resulted in contracts were valued at $66,003. Watervliet Arsenal had eight
    offers valued at $600,716, and McAlester Army Ammunition Plant had three
    offers valued at $246,033, rejected because prices were too high. Officials at
    the industrial facilities stated that the requirement to include full costs in prices
    made it difficult to compete with the private sector. The officials noted that
    factors, in addition to unutilized and underutilized plant-capacity costs that were
    driving industrial facility costs upward, included various base operations costs
    and headquarters-directed surcharges that are not directly related to products or
    services provided to customers.

            The Army Materiel Command issued instructions that directs the
    industrial facilities to submit two alternative price packages with their FY 2003
    through FY 2007 Program Objective Memorandum submissions. Either
    alternative would eliminate many of the costs and surcharges from customer
    prices that are not directly related to products or services provided to customers.
    However, the pricing guidance in the DoD Financial Management Regulation
    needs to be amended to permit the industrial facilities to charge customers only
    the costs directly related to the products or services provided.

            DoD 7000.14R, Volume 11B, Chapter 64, "Army Industrial Activities
    Sale of Manufactured Articles or Services Outside of the Department of
    Defense," requires that, in the case of a sale of commercial articles or
    commercial services, an industrial facility that manufactures large caliber
    cannons, gun mounts, or recoil mechanisms, or components thereof, charge the
    buyer the full costs (fixed and variable) that are associated with the articles or
    services sold.




                                        7
The requirement to charge full costs is more restrictive than 10 U.S.C.
4543(b)(3)(A), which authorizes the industrial facilities:
           "(A) to charge the buyer, at a minimum, the variable costs that are
           associated with the commercial articles or services; . . . ."

The intent of 10 U.S.C. 4543 is to permit industrial facilities relief from
regulations that require that the price offered to a potential customer include
costs that are unrelated to the actual manufacture of the product or the service
required by that customer. To allow industrial facilities to charge only the
variable costs associated with the articles or services provided, the Under
Secretary of Defense (Comptroller) should waive the requirement to charge full
costs contained in Volume 11B of the DoD Financial Management Regulation.
The Under Secretary should initiate an amendment to Volume 11B as permitted
by 10 U.S.C. 4543(b)(3)(A), which authorizes industrial facilities that
manufacture large caliber cannons, gun mounts, or recoil mechanisms, or
components thereof, to charge their buyers, at a minimum, the variable costs
associated with the articles or services provided. The Under Secretary
nonconcurred with a similar recommendation in Report No. 99-203. In light of
the additional emphasis on obtaining work for the Army industrial facilities
contained in the FY 2001 Defense Authorization Act, we believe that the Under
Secretary should reconsider its prior position when responding to
Recommendation 1.

Sales Legislation Requiring Advance Payments. This impediment was
previously identified in Inspector General, DoD, Report No. 99-203. Sales
under 10 U.S.C. 4543 require that Army working-capital funded industrial
facilities obtain payment in advance of performance. DoD implemented the
requirement in Volume 11B, Chapter 64, of the DoD Financial Management
Regulation. The advance payment may be in full or by incremental payments.
Officials at Rock Island Arsenal, Watervliet Arsenal, and the McAlester Army
Ammunition Plant stated that the requirement to obtain advance payment is a
barrier to obtaining work under the pilot program because contractors generally
are not willing to pay for articles and service in advance of receipt. The
common business practice in private industry is to pay for articles and services
after acceptance, often 60 to 90 days. To allow the three industrial facilities
participating in the pilot program to use private industry billing practices, the
Under Secretary of Defense for Acquisition, Technology, and Logistics should
request that Congress waive, for the pilot program, the requirement in
10 U.S.C. 4543(b)(2) that the industrial facilities obtain advance payment from
purchasers of their articles and services. The Under Secretary nonconcurred
with a similar recommendation in Report No. 99-203. We believe that adoption
of this commercial billing practice is in consonance with Under Secretary of
Defense for Acquisition, Technology, and Logistics initiatives in other areas for
DoD to adopt commercial practices. As such, we request that the Under
Secretary provide consideration to Recommendation 2.




                                     8
Assessment of the Army Pilot Program
    To date, the pilot program has minimally increased the use of the capabilities of
    the Army industrial facilities. Army implementation of the pilot program from
    June 1998 to January 2001, at the three participating industrial facilities, has
    resulted in only 12 contracts valued at $6.0 million. The pilot program has not
    generated significant additional work primarily because DoD guidance,
    10 U.S.C. 4543, and the pilot program statute contain provisions that impeded
    efforts by the industrial facilities to obtain additional work. We identified the
    various impediments to the industrial facilities' efforts to obtain additional work.
    Provisions in the FY 2001 Defense Authorization Act and recent Army
    initiatives have eliminated or mitigated some of those impediments, but have not
    been in effect long enough to create a measurable difference. Actions to
    eliminate remaining impediments will further increase the opportunities for
    commercial contractors, small businesses, and the Army industrial facilities to
    enter into contracts or teaming arrangements under DoD weapon system
    programs and increase the use of the industrial facilities' capabilities.

    We believe that the pilot program should be extended. Overall, the pilot
    program is beneficial to DoD and the military industrial base. The DoD
    benefits because the pilot program eliminates an impediment to obtaining work
    for the Army industrial facilities. The military industrial base benefits because
    it can contract or partner directly with an Army industrial facility for needed
    articles and services. The pilot program eliminates the need for the Army to
    certify that the products or services required by commercial firms desiring to
    contract or partner with an industrial facility are not available from United
    States commercial sources. The pilot program, as well as the recently
    established arsenal and armament support program initiatives, also benefit
    commercial firms because the programs provide private contractors and small
    businesses additional accessibility to the Army industrial facilities and their
    unique capabilities. Any increase in the volume of work resulting from the pilot
    program and the arsenal and armaments support program initiatives would use
    idle plant capacity, reduce overhead costs, and result in lower prices to all
    customers of the industrial facilities. More importantly, the added work would
    aid the retention of critical manufacturing skills that are being lost due to the
    lack of work at the industrial facilities.


Related Matter That May Impact Work-Loading of Army
Ammunition Plants
    Officials responsible for the pilot program at McAlester Army Ammunition
    Plant expressed concern that the Army was contracting out demilitarization
    work while the demilitarization capacity at Army ammunition plants is
    underused. On May 12, 1999, the Army Operations Support Command
    awarded a 5-year indefinite delivery indefinite-quantity contract to General
    Dynamics Ordnance Systems and Parsons Brinkerhoff Nordic Ammunition
    Company for demilitarization of 37 million rounds of 144 different types of
    ammunition. In FY 1999, two delivery orders totaling about $60.7 million were


                                       9
    issued under the contract. General Dynamics was awarded a delivery order
    valued at about $34.8 million. Parsons Brinkderhoff Nordic was awarded the
    other delivery order, valued at about $25.9 million. In October 1999, Parsons
    Brinkerhoff Nordic awarded a $5.2 million subcontract to the McAlester Army
    Ammunition Plant for demilitarization of 750 pound bombs. Parsons
    Brinkerhoff Nordic also awarded subcontracts, valued at $3.4 million, to the
    Army ammunition facilities at Crane, Indiana, and Toole, Utah, for a portion of
    the work under its $25.9 million delivery order. The indefinite delivery
    indefinite-quantity contract was of particular concern to McAlester Army
    Ammunition Plant officials because some of the demilitarization work required
    shipping of ammunition stored at Army ammunition plants in the United States
    (including McAlester) to contractor designated locations in Germany, Norway,
    and Sweden. Officials at the Army Operations Support Command told us that in
    FY 2000, about $7.9 million was obligated for transportation. The FY 2000
    budget for demilitarization of conventional ammunition was about
    $85.1 million.

    In February 1996, the Army Materiel Command directed the Army Operations
    Support Command to split the demilitarization workload between the organic
    base and private industry. An official at the Army Materiel Command told us
    that legislation or regulation did not direct the split, but that there was Army and
    congressional interest in moving toward R3 (Resource, Recovery, and
    Recycling) techniques for demilitarizing ammunition. The move towards R3
    was desired because of the environmental impact of open burning and open
    detonation techniques used by the organic ammunition plants. The indefinite
    delivery indefinite-quantity contract awarded to General Dynamics and Parsons
    Brinkerhoff Nordic requires the contractors to use incineration or R3
    techniques.

    We did not evaluate the impact of the indefinite delivery indefinite-quantity
    contract or the Army's demilitarization program on the workload at the Army
    ammunition plants. Such an evaluation was outside the scope of our review of
    the pilot program. Additionally, the General Accounting Office is performing a
    review of DoD demilitarization and disposal of excess ammunition under job
    code 709541, which includes a discussion of the indefinite delivery
    indefinite-quantity contract. The General Accounting Office anticipates that it
    will issue the report of its review in April 2001.


Recommendations, Management Comments, and Audit
Response
    1. We recommend that the Under Secretary of Defense (Comptroller):

           a. Waive the requirement to charge full costs contained in
    Volume 11B of the DoD Financial Management Regulation and allow the
    industrial facilities to charge variable costs for articles or services provided
    until Volume 11B can be amended.




                                       10
       b. Amend Volume 11B of the DoD Financial Management
Regulation as permitted by 10 U.S.C. 4543(b)(3)(A), which authorizes
industrial facilities that manufacture large caliber cannons, gun mounts, or
recoil mechanisms, or components thereof, to charge their buyers, at a
minimum, the variable costs associated with the articles or services
provided.

Under Secretary of Defense (Comptroller) Comments. The Assistant Deputy
Comptroller (Program/Budget) stated he applauds the intent of the audit
recommendations which would have the arsenals find other sources of work,
specifically work for or in partnership with the private sector. This would
increase utilization and help reduce the overall cost of infrastructure. Core
arsenal workload (gun tubes, gun mounts, and recoil mechanisms) has decreased
significantly since the end of the cold war. The arsenals are utilized at less than
20 percent of capacity. As a result, a smaller workload base must recover a
relatively fixed amount of overhead. The Assistant Deputy Comptroller
nonconcurred with the recommendation, stating that the revolving fund form of
financial management is based on the principle of full cost recovery. Full cost
recovery requires that for any work performed all direct costs plus an applicable
share of overhead expenses must be recovered from the customer. The Army
has taken actions to directly finance the unutilized capacity of these facilities and
thus exclude these costs from the chargeable rate. The Assistant Deputy
Comptroller further stated that allowing the Arsenals to charge private
contractors less than their DoD customers, in an era of scarce resources, is
counterproductive to sound financial management. Further, the concept of full
cost recovery is a basic principle that must be followed.

Audit Response. The Assistant Deputy Comptroller comments recognize the
issue but do not provide a flexible alternative. As we stated in our Report No.
99-203 on this pilot program, the Army industrial facilities are not required to
charge their customers full costs. The DoD Financial Management Regulation
requirement that the Army industrial facilities charge full costs is more
restrictive than 10 U.S.C. 4543, which provides the option to charge only
variable costs. Additionally, the Army industrial facilities have been
specifically excluded from 10 U.S.C. 2208 and 2553. Provisions in
10 U.S.C. 2208 require that working capital funded activities recover full costs
of goods or services sold. Provisions in 10 U.S.C. 2553 require that other
industrial facilities include in their prices costs that are not required by
10 U.S.C. 4543. The fact that the Army industrial facilities have been excluded
from 10 U.S.C. 2208 and 2553 and made the subject of a separate statute
(10 U.S.C. 4543) with less restrictive cost provisions makes it clear that the
Army industrial facilities can be treated differently from other industrial
facilities. The intent of 10 U.S.C. 4543 is to provide the Army industrial
facilities relief from statutes and regulations that require that the prices offered
to potential customers include costs that are unrelated to actual manufacturing of
products or services required by the potential customers. To facilitate the pilot
program, the DoD Financial Management Regulation should be modified to
permit the Army industrial facilities to charge, at a minimum, only variable
cost. Because this is a pilot program the modification to the regulation could
include a time limit. We request that the Under Secretary of Defense
(Comptroller) reconsider its position on the recommendation and provide
comments in response to the final report.


                                   11
2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics request Congress to waive, for the pilot program,
the requirement in 10 U.S.C. 4543(b)(2) that the industrial facilities obtain
advance payment from purchasers of their articles and services.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Under Secretary of Defense for Acquisition, Technology, and
Logistics did not comment on the recommendation. We request that the Under
Secretary provide comments in response to the final report.




                                12
Appendix A. Audit Process

Scope and Methodology
    We audited Army implementation of the pilot program authorized by
    section 141 of the FY 1998 Defense Authorization Act and extended by
    section 115 of the FY 2000 Defense Authorization Act. The Defense
    Authorization Acts authorize the Army to sell during FYs 1998 through 2001
    manufactured articles and services of up to three Army industrial facilities to
    persons outside DoD without determining whether the articles and services are
    available from the United States commercial sources as required by 10 U.S.C.
    4543(a)(5). To determine the effect of the pilot program on opportunities for
    United States manufacturers, assemblers, developers, or other concerns; Army
    industrial facilities; and small businesses to enter into or participate in contracts
    and teaming arrangements under DoD weapon system programs, we

       •   examined Army guidance on the pilot program;

       •   reviewed information on the 12 contracts awarded under the pilot
           program to Rock Island Arsenal, Watervliet Arsenal, and the McAlester
           Army Ammunition Plant;

       •   reviewed the Army's experience and results under the pilot program and
           discussed the results with officials at the Army Materiel Command, the
           Army Operations Support Command, Rock Island Arsenal, Watervliet
           Arsenal, and the McAlester Army Ammunition Plant; and

       •   discussed pilot program assessment with officials at the Army Materiel
           Command; the Army Operations Support Command; Rock Island
           Arsenal; Watervliet Arsenal; and the McAlester Army Ammunition
           Plant.

    Limitations to Scope. We did not review the management control program
    because the scope of the audit was limited to determining the results of the pilot
    program in response to tasking in the Defense Authorizations Acts for FYs 1998
    and 2000.

    General Accounting Office (GAO) High Risk Area. The GAO has identified
    several high risk areas in the DoD. This report provides coverage of the DoD
    Infrastructure Management and the DoD Weapon Systems Acquisition high risk
    areas.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Type, Dates, and Standards. We performed this program audit from
    September 2000 through January 2001 in accordance with auditing standards



                                         13
     issued by the Comptroller General of the United States, as implemented by the
     Inspector General, DoD.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within the DoD, and selected contractor organizations. Further
     details are available upon request.


Prior Coverage
     During the past 5 years, the General Accounting Office issued one audit report
     and the Inspector General, DoD, issued two audit reports that discussed Army
     industrial facilities.


General Accounting Office

     GAO Report No. GAO/NSIAD-99-31 (OSD Case No. 1674), "Army Industrial
     Facilities: Workforce Requirements and Related Issues Affecting Depots and
     Arsenals," November 1998.


Inspector General, DoD

     IG, DoD, Report No. 99-203, "Status of Implementation of the Pilot Program
     on Sales of Manufactured Articles and Services of Army Industrial Facilities,"
     July 8, 1999.

     IG, DoD, Report No. 99-121, "Pilot Program on Sales of Manufactured Articles
     and Services of Army Industrial Facilities," April 2, 1999.




                                      14
Appendix B. Summary of Contracts Obtained
            Under the Pilot Program
        Contracts                                                                 Dollar Value

                                           Rock Island Arsenal
(1) Machine Top Ring Assembly for the Armored Combat Earthmover
    Prime Contractor: LOC Performance Products         Customer: Army             $     38,885
(2) Engineering Services/IIT Research
    Prime Contractor: IIT Research                         Customer: Army               20,005
(3) Metallurgical Study of Lower Housing Assembly Metal Fragments
    Prime Contractor: Day & Zimmermann                    Customer: Army                 7,113
                 Subtotal                                                               66,003

                                           Watervliet Arsenal
(1) Machining and inspection of internal thread for Launch Assembly
    Prime Contractor: B&B Devices            Customer: Defense Logistics Agency         15,278

                                  McAlester Army Ammunition Plant
(1) Load, assembly, and pack MK 82, Joint Defense Attack Munitions
    Prime Contractor: Boeing Aircraft Company             Customer: Navy                35,704
(2) Demilitarization of 105-mm HEAT Tank Ammo Projectiles
    Prime Contractor: Primex Technologies               Customer: Army                  64,490
(3) Navy Harpoon System
    Prime Contractor: McDonnell-Douglas                    Customer: Navy              504,825
(4) Base Hardness
    Prime Contractor: Aliant Techsystems                   Customer: Army               67,017
(5) Pallets for Javelin
    Prime Contractor: Independent Pipe Products            Customer: Army               21,235
(6) BLU 109/UK
    Prime Contractor: General Dynamics Land System         Customer: Air Force          28,476
(7) Demilitarization of AMRAAM Missile Components
    Prime Contractor: Raytheon                             Customer: Air Force          11,135
(8) 5 Years Demilitarization of 750Lbs Bombs
     Prime Contractor: PB/NAMMO*                           Customer: Army             5,200,000
                 Subtotal                                                             5,932,882
                 Total                                                            $6,014,163



*PB/NAMMO        Parsons Brinkerhoff Nordic Ammunition Company




                                                  15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, Army Materiel Command
  Commander, U.S. Army Operations Support Command
      Commander, McAlester Army Ammunition Plant
      Commander, Rock Island Arsenal
      Commander, Watervliet Arsenal
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                        16
Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee of Technology and Procurement Policy, Committee on
  Government Reform




                                      17
Under Secretary of Defense (Comptroller)
Comments




                       19
20
21
22
23
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing, DoD, produced this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Paul Granetto
Garold Stephenson
Eugene Kissner
Peter Lee
LTC Crawford L Thompson, USAR
Shaneen Beamish
Nick Bretz
